<html>
<title> - TO EXAMINE THE IMPACTS OF WILDFIRE ON ELECTRIC GRID RELIABILITY AND EFFORTS TO MITIGATE WILDFIRE RISK AND INCREASE GRID RESILIENCY</title>
<body><pre>[Senate Hearing 116-362]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-362

               THE IMPACTS OF WILDFIRE ON ELECTRIC GRID 
                RELIABILITY AND EFFORTS TO MITIGATE WILD-
                FIRE RISK AND INCREASE GRID RESILIENCY  

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 19, 2019

                               __________
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov        
        
                              __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-876                     WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------       
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                      Jed Dearborn, Senior Counsel
                Nick Matiella, Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
            Brie Van Cleve, Democratic Senior Energy Advisor
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     3

                               WITNESSES

Johnson, William ``Bill'' D., Chief Executive Officer and 
  President, PG&E Corporation....................................     5
Wara, Dr. Michael, Director, Climate and Energy Policy Program, 
  Woods Institute for the Environment, Stanford University.......    16
Corwin, Scott, Executive Director, Northwest Public Power 
  Association....................................................    23
Imhoff, Carl, Manager, Electricity Market Sector, Pacific 
  Northwest National Laboratory..................................    30
Russell, Dr. B. Don, Distinguished Professor and Director, Power 
  Systems Automation Laboratory, Texas A&M University............    47

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Corwin, Scott:
    Opening Statement............................................    23
    Written Testimony............................................    25
    Responses to Questions for the Record........................    86
(The) Edison Electric Institute:
    Letter for the Record........................................    90
Fugro USA:
    Letter for the Record........................................    94
Imhoff, Carl:
    Opening Statement............................................    30
    Written Testimony............................................    32
    Responses to Questions for the Record........................    88
Johnson, William ``Bill'' D.:
    Opening Statement............................................     5
    Written Testimony............................................     7
    Responses to Questions for the Record........................    82
Manchin III, Hon. Joe:
    Opening Statement............................................     3
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Public Knowledge:
    Letter for the Record........................................    96
Russell, Dr. B. Don:
    Opening Statement............................................    47
    Written Testimony............................................    49
U.S. Department of the Interior, Bureau of Land Management:
    ``Routine Operations and Maintenance to Reduce Fire Risk on 
      Utility Rights-of-Way'' dated 12/12/19.....................    71
Wara, Dr. Michael:
    Opening Statement............................................    16
    Written Testimony............................................    18
    Questions for the Record.....................................    85
Western Area Power Administration:
    Statement for the Record.....................................   106
Western Governors' Association:
    Letter for the Record........................................   109

 
  TO EXAMINE THE IMPACTS OF WILDFIRE ON ELECTRIC GRID RELIABILITY AND 
     EFFORTS TO MITIGATE WILDFIRE RISK AND INCREASE GRID RESILIENCY

                              ----------                              


                      THURSDAY, DECEMBER 19, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:33 a.m. in Room 
SD-366, Dirksen Senate Office Building, Hon. Lisa Murkowski, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order. This is our last hearing of the year. There is a 
lot going on this morning, so I think we will have people 
popping in and out. We do have a pretty hard stop at 11 o'clock 
this morning. We have a series of votes, and we are going to 
observe an actual ten minute clock we are told. It will be the 
first time in Senate history, but that is the goal this 
morning. So we want to be able to hear from everyone this 
morning and have an opportunity for the very, very, very 
important conversations regarding this issue.
    We are here to discuss the impact of wildfires on the 
reliability of our electric grid and efforts to mitigate 
wildfire risk and increase grid resiliency.
    In recent years, devastating wildfires and related 
electricity blackouts in California have drawn national 
attention to the challenge of maintaining grid resiliency in 
the face of extreme conditions. Tragically, we remember last 
year's Camp Fire, the deadliest and most destructive fire in 
California history, which incinerated the town of Paradise, 
killing 85 people. State investigators determined that the fire 
was caused by degraded, 97-year old power lines during so-
called ``fire weather'' which consists of strong winds, low 
humidity, dry vegetation, and heat.
    The Camp Fire was a sobering wakeup call on the inherent 
risk of maintaining thousands of miles of aboveground power 
lines across fire-prone landscapes. It spurred California 
regulators and several of the state's largest utilities to 
increase their use of Public Safety Power Shutoffs, or PSPS 
plans, as a precaution against possible wildfire ignitions 
during high wind events.
    Intended as a measure of last resort, PSPS plans call for 
utilities to de-energize power lines in extreme weather 
conditions and blackout large portions of their service 
territory. From June through November, at least nine PSPS 
events cut power for more than three million Californians. For 
some, these blackouts lasted a few hours. Others, however, went 
without power for nearly six days.
    These blackouts occurred not only in the rugged terrain of 
northern California but also in the greater metro areas of San 
Francisco, San Diego, and Los Angeles County. Repeat scenarios 
could be with us for a very long time. According to the 
testimony that we will hear today, wildfire blackouts could be 
California's new normal for the next 10 to 30 years, or perhaps 
even longer.
    One would expect to see such living conditions in a 
developing country, not in some of the most populated and 
prosperous places here in the United States and certainly not 
in a state with some of the highest electricity prices in the 
nation.
    But this challenge is not limited to California. Dense 
vegetation and hazard trees interfering with power lines are 
not an uncommon cause of wildfires. Neither is the degraded 
energy infrastructure. On a national basis, the U.S. Forest 
Service estimates that more than 277 fires from 2017 to 2018 
can be traced to power lines. Several of the fires that merged 
into the 2016 Great Smoky Mountains Wildfires were started by 
wind-downed power lines. The Great Smoky Mountains Wildfires 
were the deadliest in the eastern U.S. since the Great Fires of 
1947.
    In my home State of Alaska, some fires in the Mat-Su Valley 
north of Anchorage are believed to be connected to power line 
ignitions in a region that has some pretty high spruce bark 
beetle mortality. An investigation is still pending there, but 
a tree falling onto a distribution line is the suspected cause 
of the McKinley Fire this summer, which resulted in the loss of 
56 homes.
    The danger in Alaska, like elsewhere in the nation, is that 
power lines are necessarily located near homes, and schools, 
and businesses. That is just a fact. Climate change, drought, 
insect infestation, and poor forest management have made forest 
landscapes more susceptible to fire, particularly in the West. 
As more people build homes in the wildland-urban interface or 
in dispersed forest communities, the chances for utility-
related wildfires are sure to increase.
    In this era of mega-fires, Congress has stepped in to 
ensure that the Federal Government is not a roadblock to 
clearing dense vegetation and hazard trees from utility rights-
of-way. In 2018, we passed the Electric Reliability and Forest 
Protection Act as part of the 2018 Consolidated Appropriations 
Act. That law directs federal land managers to expedite the 
clearing of vegetation within 100 feet of power line corridors 
on federal land. It is my understanding that both the 
Department of the Interior and the Forest Service are now 
implementing that important measure.
    Now we must turn our attention to what can be done to 
harden our energy infrastructure and improve the resiliency of 
our grid in high fire-risk areas during these extreme weather 
conditions. This is a complex problem that is going to require 
collaboration at all levels in partnership with the electric 
industry.
    I thank those of you that have joined us this morning to 
provide this important testimony, I thank colleagues for being 
here, and I will now turn to my friend, Senator Manchin, for 
his comments before we turn to the panel.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you so so much Chairman Murkowski.
    Before I go into my opening statement, I want to take a 
moment of personal time here if I can. Today will be the last 
meeting of a person who has been with me quite a long time in 
my office. She has been with me in my DC office, she was my 
Chief Counsel there, and then she moved over when I became 
Ranking Member as the Staff Director of the Ranking Member 
staff and has done a tremendous job, Sarah Venuto. Sarah has a 
new little baby. She now has two little babies and things in 
life change at times, and we are just so sorry that she won't 
be on the Committee or working in the Committee or leading the 
staff. But she will always be near and dear to us and by her 
phone and we are not going to let her escape too far. So with 
that, Sarah, I want to thank you for all your years of service.
    [Applause.]
    Chairman Murkowski, thank you for holding the hearing today 
on the relationship between wildfires and the electric grid. 
Wildfires are a threat to critical infrastructure, including 
the electric grid. But as we have seen in several instances, 
equipment failures on the grid can also spark wildfires. This 
is especially true for Western states. We have seen several 
catastrophic fires in California, but this impacts Eastern 
states too. And my home State of West Virginia has not been 
exempt. Over Thanksgiving weekend, the Dry Hollow Fire burned 
1,300 acres in West Virginia. Fortunately, no homes were 
damaged, but other communities across the country have not been 
so lucky.
    Over the last few years, California has been extremely hard 
hit by wildfires, and the impacts have been truly devastating. 
Last year, the Camp Fire alone killed 85 people and destroyed 
14,000 homes in the town of Paradise. I appreciate Mr. Bill 
Johnson, President of PG&E Corporation, being here today and 
willing to talk about his company's understanding of the 
mistakes that were made, the lessons learned and the 
operational changes PG&E is making to ensure this never happens 
again.
    Wildfires are increasing in intensity, size, and frequency, 
and we are going to need a new approach to mitigate their 
devastating impacts and ensure the electricity infrastructure 
isn't starting the fires. They are also getting harder to 
control due to climate change, lack of forest management, and 
new housing developments in rural fire-prone areas. This is 
affecting millions of people.
    I look forward to hearing from our panel about available 
technologies and management practices and what innovative 
solutions are needed to reduce risk and cost. The Department of 
Energy and our national labs, including NETL in my home state, 
are working on modernizing the electric grid to make it more 
resilient. We need to make sure this effort is addressing the 
relationship between wildfires and the grid, both in terms of 
wildfires impacting the grid and also electricity 
infrastructure igniting wildfires.
    There is no silver bullet, but we can and should look to 
learn from the utilities that have made their grids the most 
resilient to wildfires, that have had the best maintenance 
programs and the best service delivery. This goes for 
maintenance and inspection practices and installations of new 
and improved technologies to detect problems early--risk 
mitigation like tree trimming or burying power lines and de-
energizing power lines as a last resort.
    Of course, the last resort is shutting off the power which 
PG&E and other utilities have done proactively several times in 
recent months during unusually high winds. I can imagine how 
disruptive that was to the millions of customers and businesses 
that depend every day on electricity you provide. So I hope you 
will explain to us today why that was a step you took in those 
particular circumstances and how effective it was. I understand 
that during one of the PG&E power shutoffs 218 instances of 
line damage were discovered, 24 of which would likely have 
started wildfires if you had not taken precautionary actions. 
So the shutoff may have prevented several fires, but it also 
came at a great cost and it raises the question, if we have to 
shut off the power, how can we do it in a way that causes the 
least harm to customers?
    Finally, I look forward to hearing from the witnesses about 
ways that Congress can be helpful. I know that we took a big 
step forward by including a provision in the 2018 Omnibus bill 
to make it easier for utilities to do their required 
maintenance, especially for the small rural electrical co-ops, 
but I welcome your thoughts on additional actions we can take 
to make it easier to clean up an area after a wildfire, 
including making use of some of the timber from the trees 
killed by the fire before the timber rots. It makes no sense to 
me at all.
    We want to avoid the devastation caused by wildfires and 
have a reliable, resilient electric grid to power our homes and 
our businesses. In the face of increasing wildfire risks, we 
need to do everything we can to manage and reduce these rising 
risks. I look forward to hearing from witnesses and what they 
have to say about how to do that. So thank you, Chairman 
Murkowski, and I thank all of our witnesses for coming and 
making the effort to be here today.
    The Chairman. Thank you, Senator Manchin. We will begin 
with our panel this morning. Again, thank you to each of you 
for being here and the contributions that you will make to this 
very important discussion.
    The panel is going to be led off this morning by Mr. Bill 
Johnson. Mr. Johnson is CEO and President for PG&E Corporation. 
I know that this has been a very, very difficult time for you, 
for all within the PG&E family. It has been a significant 
challenge, and I know that you have made every effort to be 
open and transparent as you deal with this and share these 
lessons learned. We are very appreciative that you are here 
with us this morning.
    Dr. Michael Wara is also with us. He is a Senior Research 
Scholar at Stanford Woods Institute for the Environment. We 
thank you. Mr. Scott Corwin is the Executive Director for the 
Northwest Public Power Association (NWPPA). We appreciate your 
contribution this morning. Carl Imhoff is the Manager for the 
Electricity Market Sector at one of our fabulous national labs 
at Pacific Northwest National Laboratory (PNNL). We are 
thankful you are here. And the panel will be rounded off by Dr. 
B. Don Russell. Dr. Russell is a Professor and Director of the 
Power System Automation Laboratory at the Department of 
Electrical and Computer Engineering at Texas A&M University. So 
we appreciate you being here.
    We would ask you to try to keep your comments to about five 
minutes. Your full statements will be included as part of the 
record, and then we will have an opportunity for the back and 
forth. Mr. Johnson, welcome to the Committee.

   STATEMENT OF WILLIAM ``BILL'' D. JOHNSON, CHIEF EXECUTIVE 
            OFFICER AND PRESIDENT, PG&E CORPORATION

    Mr. Johnson. Thank you so much. Good morning. I am Bill 
Johnson, President and CEO of PG&E Corporation. I appreciate 
the invitation to be here and the Committee's interest in 
wildfires and the impacts to electric grid reliability and 
resilience.
    As has been mentioned, in California and throughout the 
West we've seen a dramatic increase in wildfire threat as a 
result of a changing climate, which in turn has had dramatic 
effects on our electric system and how we operate it. Just 
seven years ago, 15 percent of PG&E service area was designated 
as having elevated fire risk. That number is over 50 percent 
today, and it will continue to grow. So in seven years, the 
risk of fire more than tripled for our service area in Northern 
California. California has also experienced its most 
destructive wildfires in the past two years and its deadliest.
    PG&E is deeply sorry for the role that our equipment had in 
those fires, in the losses that occurred because of them, and 
we are taking action to prevent it from ever happening again. 
We invested over $30 billion in our electric system over the 
last decade, including more than $3 billion in vegetation 
management, and today we are taking that work a step further by 
increasing vegetation management in the high-risk areas, 
incorporating analytical and predictive capabilities and 
expanding the scope and intrusiveness of our inspection 
processes.
    This year we inspected every element of our electric system 
within the high-threat fire areas, examining almost 730,000 
structures and 25 million discrete related components in about 
four months. We deployed 600 weather stations and 130 high 
resolution cameras across our service area to bolster 
situational awareness and emergency response, we're using 
satellite data and modeling techniques to predict wildfire 
spread and behavior, and we're hardening our system in those 
areas where the fire threat is highest by installing stronger 
and more resilient poles and covered line as well as 
undergrounding.
    And this year we took the unprecedented step of 
intentionally turning off power for safety during a string of 
severe wind events where we saw up to 100 mile an hour winds 
onshore in Northern California. And this decision affected 
millions of our customers, caused them disruption and hardship 
even as it succeeded in its goal of protecting human life. So 
the nature of this risk and the potential consequences of it 
requires to plan, operate, and maintain our systems differently 
than we ever have. And this will require a focus on resilience 
as well as reliability. And that's one of the lessons here 
applicable beyond California. And the Committee has already 
noted this, that resilience and reliability are related, but 
they are distinct concepts.
    Our customers, including critical infrastructure and first 
responders, have long depended on reliable service. But today 
more than ever, our ability to provide reliable service depends 
on a comprehensive societal approach to resilience. Congress 
addressed reliability through Section 215 of the Federal Power 
Act nearly 15 years ago and Congress can address resilience now 
through potential actions that include directing DOE to develop 
a framework and process for economic cost benefit analysis of 
resilience investment, increased eligibility and funding for 
existing energy assistance and community resilience programs, 
support research and development of new technologies and 
forward-looking data, and promoting public-private partnerships 
to establish voluntary resilience zones and building codes and 
standards.
    Specific to addressing the wildfire threat, we believe that 
the Federal Government should continue its focus on funding 
forest management and fire suppression activities, implementing 
forest and vegetation management policies advanced by Senator 
Daines and Congressmen LaMalfa and Schrader, ensuring access to 
federal lands for prevention and response and authorizing 
federal agencies to share satellite data for wildfire 
detection.
    We, of course, know that addressing this risk must start 
with us and in our own operations. That's why we're focused on 
a safety and risk-based approach to mitigating the dynamic risk 
facing this company and the industry. And let me conclude by 
saying that PG&E remains committed to doing everything in our 
power to build a better and safer future for all. That's what 
our customers deserve. Thank you for the opportunity.
    [The prepared statement of Mr. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Johnson.
    Dr. Wara, welcome.

  STATEMENT OF DR. MICHAEL WARA, DIRECTOR, CLIMATE AND ENERGY 
 POLICY PROGRAM, WOODS INSTITUTE FOR THE ENVIRONMENT, STANFORD 
                           UNIVERSITY

    Dr. Wara. Senator Murkowski, Senator Manchin, thank you 
very much for having me before the Committee to discuss this 
issue. There are real present threats to the bulk transmission 
system presented by wildfire. At least in the California 
context, these threats raise significant questions regarding 
how and if elements of the transmission system that cross the 
high threat areas should be operated during increasingly common 
and increasingly dangerous late fall dry, high wind events.
    As Bill Johnson just discussed, PG&E has faced enormous 
threats to its system and has really for the first time this 
year used widespread Public Safety Power Shutoffs as a tool to 
create safety. And as you mentioned in your opening remarks, 
this is not just an issue for rural or remote parts of 
California, but really directly impacts millions of people in 
the metro areas in California as well. The use of PSPS has both 
prevented wildfire and caused widespread disruption to families 
and businesses, especially in Northern California.
    PSPS events, though they do dramatically improve safety, 
are very costly to the health of the economy, especially in 
smaller communities. My best estimate using tools developed by 
Lawrence Berkeley Laboratory indicates that PG&E PSPS events in 
2019 likely cost customers more than $10 billion. Failure of 
transmission components during high winds is not a new 
phenomenon in California. Indeed, the wildfire that spelled the 
birth of modern approaches to managing utility-caused wildfire 
risk, the 2007 Witch Fire in San Diego County, was caused by 
SDG&E transmission line failure. Similarly, the Camp Fire was 
ignited by a failure of a transmission line and this year, and 
perhaps most concerning of all, failure of a jumper on a 230kV 
line in The Geysers appears to have caused the Kincade Fire.
    While the Kincade Fire was superbly managed by the Newsom 
Administration, CalFire, and CalOES, after ignition it could 
have resulted in property loss at least as large as the Tubbs 
and Camp Fires that came before it. In addition, there's at 
least a suggestion that two fires in Southern California were 
potentially caused by transmission system failures this year. 
I'd emphasize that the 2019 fires are still very much under 
investigation. We don't fully understand their causes, but 
there is a strong suggestion of vulnerability in the 
transmission system.
    Prior to this year, preemptive de-energization of 
transmission assets was relatively limited. Mostly it involved 
lower voltage transmission lines that were much older. The 
failures we observed this year indicate that even the higher 
voltage lines that provide bulk system reliability may be 
vulnerable during high wind events. It would seem prudent based 
on recent experience to at least consider including all of 
these lines perhaps except the very highest voltage lines in 
the PSPS protocols, and that has potentially significant 
ramifications for bulk system reliability in California and 
impacts beyond the high wildfire threat areas on customers.
    Currently California regulators and utilities are engaged 
in urgent examination of inspection and testing protocols for 
these critical components to understand why the failures are 
occurring. The Kincade--the tower that may have caused the 
Kincade Fire was inspected at least four times over the last 24 
months and yet it failed. And we need to understand why and we 
need to understand what mitigating actions we can take to 
ensure that bulk system reliability is maintained even through 
PSPS events.
    All this raises important questions about how to approach 
bulk system maintenance and operations moving forward in areas 
that face significant wildfire threat. Traditionally, some risk 
of mechanical failure was acceptable from these systems because 
the failures tended to occur during wet winter storms, but 
today in California at least the failure mode grid managers 
worry most about is mechanical failure when it's windy, dry, 
and the fuels are cured. These conditions are highly intolerant 
of any failure of the bulk transmission system to operate 
properly. And this change in a consequence of failure mode 
means that tolerance for errors has to be much lower than the 
cost-effective approaches developed during the 20th century. 
Moreover, best available science on weather and climate 
conditions indicate that this problem is going to get worse, 
not better, as the years pass and is likely to spread beyond 
California into a broader impact on the Western United States.
    The legislature and Governor Newsom have worked relatively 
successfully over the last year to reduce the perceived and 
financial risks of these impacts on customers, on the 
utilities, and on the victims of fires. I'd point to passage of 
the Wildfire Fund legislation this summer, which provided a 
possible exit for PG&E out of bankruptcy and also helped to 
stabilize Edison's and San Diego Gas & Electric's credit 
ratings, but I think we all have to focus on affordability and 
cost effectiveness of the strategy as we look to the future. 
Affordability is key as we maintain safety and reliability of 
the system, and that's going to require very smart and very 
targeted investment in the electricity system. It's going to 
require much more sophisticated approaches to measurement and 
quantification of variants in the system performance so that 
problems can be identified and fixed before disaster strikes. 
And as was alluded to, it's going to require collaboration 
between local property owners, local, state and Federal 
governments, and wildland firefighters in reducing fuel loads 
so that the consequences of ignition are less. I'm hopeful that 
the lessons learned in California over the past several years 
of catastrophe can be fruitful for other Western states as the 
wildfire threat, both from the electric system and other 
causes, increases due to climate change. Thank you.
    [The prepared statement of Dr. Wara follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Dr. Wara.
    Mr. Corwin, welcome.

STATEMENT OF SCOTT CORWIN, EXECUTIVE DIRECTOR, NORTHWEST PUBLIC 
                       POWER ASSOCIATION

    Mr. Corwin. Thank you Chairman Murkowski, Ranking Member 
Manchin, members of the Committee for holding this hearing 
today. In an industry so dedicated to safety, reliability, and 
affordability for our customers, wildfire stands out as a major 
threat to all three principles and it's something that demands 
our best collaborative effort.
    The Northwest Public Power Association is comprised of 158 
consumer-owned electric utilities across the Western region 
with land that's mostly under federal ownership in many places 
and where many of the largest wildfires occur. If you live in 
these areas, sooner or later you, your family, your friends are 
impacted. It's very real in these areas. In fact, my father-in-
law was a smokejumper in the 1960s at the Siskiyou Base in 
Oregon and still lives in northern Nevada where wildfires 
reached their suburban neighborhoods. For public power 
communities, even one life harmed by this threat is too many 
and fire is one of the greatest risks to the financial 
stability of our members and solvency. And it threatens their 
ability to provide that basic electricity service.
    So they have mobilized, analyzed their gaps and needs with 
some implementing plans that include dozens of actions on 
topics like enhanced inspections, operational practices, 
situational awareness, vegetation management, system hardening, 
circuit reclosing, and others you'll hear about today. And we 
thank you in Congress for your work, and this all takes 
funding. So we thank you for stabilizing and starting to 
stabilize the federal funding. It's an important part of this 
equation. And now it's important that we prioritize that 
funding and get the best bang for the buck to this important 
cause.
    Our members know that the best way to suppress or avoid 
fire is to eliminate fuel or ignition in the first place and 
unfortunately delays in removing trees or in widening corridors 
that are no longer wide enough have exacerbated the risk of 
catastrophic wildfire. Some of our members maintain service 
territories where 80 percent of the land is owned by the 
Federal Government. Effective management of these lands demands 
a true partnership between federal agencies and the utilities 
who need approvals to maintain those rights-of-way. To that 
end, we thank you for passing the amendment last year to the 
Federal Land Policy and Management Act to promote federal 
consistency, accountability, and timely decision-making.
    Now we're looking for consistent, coordinated, quick 
implementation of this law. We appreciate the U.S. Forest 
Service recently issued a proposed rule on this, and we know 
that just this week an update to my written testimony that BLM 
has issued instructional memos to their state offices in the 
West. We'll review these brief memos, but they appear to set a 
tone of compliance with the law as Congress intended, which is 
encouraging.
    Still we highlight several things as the agencies move 
forward to ensure grid safety, reliability, and resilience. We 
need coordinated consistent guidelines that eliminate the need 
for case-by-case approvals for routine operations and control 
of hazard trees. We'd like to see a culture of responsiveness. 
We have many good relationships with the hardworking employees 
at BLM and the Forest Service. They share our goal of good 
stewardship of federal lands. So more consistent standards, 
timelines, and collaboration with operators is great for all 
sides and of utmost importance and it starts with culture.
    We urge full use of agency discretion to identify the 
categorical exclusions to the lengthy processes under the 
National Environmental Policy Act (the Act) for routine and 
regular work and for hazard tree removal. We need more training 
for agency staff, especially on electrical system knowledge, 
and we're ready to provide it as the law outlines.
    We'd like to see a straightforward implementation of the 
provision allowing quick action on hazard trees. This is really 
vital to decisive action to protect people and our electrical 
systems. And it's important that we see implementation of the 
very sensible provisions in the Act on liability. There's been 
a lot of uncertainty and there's also layers at the state and 
local level that utilities need to comply with and that create 
risk. And even when there's no indication that a utility caused 
an event sometimes they'll receive an invoice from a state or 
federal agency for damages, even years afterward without 
process.
    Finally, we should build on the coordination that we're 
seeing increasingly among utilities and federal and state and 
local agencies on how to protect critical systems. NWPPA stands 
ready to assist in that as well. We appreciate your leadership 
on the Committee in prioritizing wildfire prevention and 
suppression. And there's a lot more to do, and the faster we 
act ahead of the next fire system, the better. I'm glad to 
answer any questions or to provide additional information for 
the record at your request. And thank you again for having this 
hearing and for having me here today.
    [The prepared statement of Mr. Corwin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Corwin.
    Mr. Imhoff, welcome.

 STATEMENT OF CARL IMHOFF, MANAGER, ELECTRICITY MARKET SECTOR, 
             PACIFIC NORTHWEST NATIONAL LABORATORY

    Mr. Imhoff. Good morning and thank you Chairman Murkowski, 
Ranking Member Manchin, and members of the Committee for the 
opportunity to join the session today.
    My name is Carl Imhoff, and I lead the Grid Research 
Program at the Pacific Northwest National Laboratory in 
Washington State. I also have the honor of serving as the Chair 
of DOE's Grid Modernization Lab Consortium (GMLC), which is a 
team of 14 national laboratories led by PNNL and the National 
Renewable Energy Laboratory that work with industry, state, and 
university partners to support DOE's Grid Modernization 
Initiative.
    For over two decades, PNNL has supported the power system 
reliability, innovation, resilience for the nation, working 
with industry to deliver important outcomes ranging from cyber 
resilience for three quarters of the electricity generated in 
the United States, national networks of high performance 
sensors, and grid storage concepts that are delivering the 
flexibility we need for a resilient system of the future.
    Today I'd like to offer three points related to the 
wildfire issues that are our focus for the session. Number one, 
the DOE grid modernization strategy is focused on R&D for 
reliability and ``all-hazards'' resilience for a modern grid. 
So the fire safety issues are part of that ``all-hazards'' 
perspective in the Grid--DOE program. Industry and DOE are 
currently systematically identifying DOE laboratory R&D that 
directly supports the industry wildfire activity, and I'll 
share some of those details. And then third, the nation has the 
opportunity, I believe, moving forward to leverage the recent 
industry experience that's been discussed so far in this 
session, to inform new planning and operational scenarios to 
better reflect wildfire threats in all aspects of how the 
system is planned and operated going into the future.
    For clarity, I use the National Academy of Engineering 
definition of resilience as avoiding outages in the first place 
and then minimizing the breadth and duration of outages if and 
when they do actually occur. To the first point, the DOE Grid 
Modernization Initiative focuses on reliability and all-hazards 
grid resilience enables system operators, federal land 
managers, states and communities to address wildfire risk. All-
hazards in this case means human threats like cyber and 
physical attack, natural threats such as hurricanes and 
wildfires, and normal system risk of equipment failures.
    Three topics within the DOE portfolio are most relevant to 
wildfire: First, advanced sensing and data analytics; second, 
extreme event planning tools; and then third, the real-time 
operational and emergency response tools to support operations 
during wildfire events. The sensing tools are foundational to 
detecting impending failures and informing real-time tools to 
mitigate that risk. The tools to de-energize or turn off downed 
or falling lines leveraged some of these data assets. And the 
machine-learning concepts provide the capacity to analyze ultra 
large high-velocity grid data streams that we're seeing on the 
modern grid.
    Extreme event planning tools give system planners 
unparalleled capability to access extremely complex and large 
threat scenarios--all-hazards, again, threat scenarios--to 
identify the most resilient design options in the face of a 
power system that is getting more variable, more connected at 
the edge, more interdependent with other critical 
infrastructures and facing more challenging threats. And the 
real-time operational concepts are providing operators with 
insights on risk and decision support that is moving from the 
paradigm of hours and days ahead to seconds and minutes ahead.
    Regarding DOE industry engagement, the Edison Electric 
Institute approached DOE in August regarding DOE R&D results 
that could support the industry preparations for the 2020 fire 
season. Industry expressed particular interest in DOE expertise 
in satellite and drone imagery to conduct damage assessment and 
situational awareness, and they also sought the advanced 
technology to detect and protect against imminent failure.
    Thirdly, industry expressed interest in data analytic 
tools, and DOE recently delivered a set of about 15 or 20 
options to industry for consideration. Just a few examples 
include: GMLC-derived sensors and machine-learning algorithms 
that Oak Ridge and Lawrence Livermore are testing at PG&E; DHS 
and DOE CESER developed satellite damage assessment tools that 
PNNL deployed for hurricanes; DOE EERE and U.S. Forest Service 
platforms for biomass assessment and moisture detection and 
vegetation types currently deployed to Washington State by PNNL 
and extendable to other high-risk national forest and range 
areas in the West; and then lastly, GMLC and DOE emergency 
response tools from Sandia and Oak Ridge for situational 
awareness and emergency mapping.
    Finally, the National Academy of Engineering Resilience 
Report in 2017 encouraged industry to be more expansive in 
framing the resilience scenarios against which the grid of the 
future needs to be designed. I believe that industry 
coordination to the role of the Electricity Subsector 
Coordinating Council to ensure connection between the investor-
owned and public entities can integrate recent wildfire lessons 
with the DOE R&D agenda to deliver Blue Ribbon use cases and 
scenarios that would enhance industry efforts to mitigate and 
protect against wildfire. Thank you very much.
    [The prepared statement of Mr. Imhoff follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Imhoff.
    Dr. Russell, welcome to the Committee.

 STATEMENT OF DR. B. DON RUSSELL, DISTINGUISHED PROFESSOR AND 
   DIRECTOR, POWER SYSTEMS AUTOMATION LABORATORY, TEXAS A&M 
                           UNIVERSITY

    Dr. Russell. Thank you very much for the invitation to be 
here. I'm here to talk about how to prevent power-line-caused 
wildfires.
    On a December day, and these are real examples from actual 
utilities, two electric power lines came together and clashed. 
They broke the line. It was Christmas, December 25th. The 
lights went out on hundreds of customers just as dinner went 
into the oven. Power was off for hours. Arcing metal was thrown 
off from those conductors and thankfully a fire didn't start 
that specific day, but a lot of people missed Christmas dinner 
because they didn't get to cook it.
    What utility operators didn't know about that event was 
this: that Christmas Day outage was caused by an event that had 
occurred five times in exactly the same place over the previous 
four years. That was the fifth time that event had occurred. 
Until now, no system was available that any utility could use 
that would automatically provide operators the information 
necessary to find and fix this specific problem.
    Regular inspections by the utility had found absolutely 
nothing, and it had been inspected multiple times. In fact, it 
had been inspected explicitly for the purpose of finding why 
this had happened.
    Repetitive faults that occur one day may start a fire the 
next time they occur. Sometimes that's years from now and the 
ultimate failure could have been predicted. Texas A&M 
University has developed distribution fault anticipation 
technology. The system uses intelligent algorithms to 
continually monitor electric circuits to detect the very 
earliest stages of failing devices and mis-operations. The 
concept is simple. You find and fix it before the catastrophic 
failure causes the fire or causes the outage.
    When a major fault occurs today, utilities have protection 
equipment that very quickly, maybe in a few hundred 
milliseconds, de-energizes the power lines, but the fault may 
have already caused the fire. That's the best they can do with 
the equipment that they have. The root cause of that fault may 
have started days or even weeks, and in some cases years before 
the catastrophic failure caused the fire. Digital waveform 
analytics can now detect the earliest stages of an arcing 
device long in advance of catastrophic failure. Instead of 
waiting to react to the failure, let's find and fix it early.
    Texas A&M researchers monitored over 100 utilities' 
circuits in a longitudinal study for over 15 years capturing 
every failure and mis-operation on those circuits. It's the 
largest database of its existence in the world. We now know how 
those failures occur, and we now know how they can be detected.
    Let me give you another example. A failing clamp, just like 
this particular clamp right here, which did fail by the way, 
caused a power line to fall to the ground causing an outage for 
hundreds of customers, it had happened in Tennessee. I don't 
remember if anybody's here from Tennessee. The arcing line was 
a potential ignition mechanism once it hit the ground. What 
utility operators did not know is that for the previous 21 days 
before the clamp caused the line to fall, an arcing condition 
had occurred on the clamp 2,333 times. In the last half of that 
21 days, every one of those arcing conditions represented an 
ignition mechanism if ground conditions were correct. So let's 
call it an average of 10 days and something on the order of 
1,200 arcing events, each one of those had an opportunity to 
start a fire.
    With advanced technology, Texas A&M researchers were able 
to detect that line clamp that I'm talking about in the very 
first moments of the very first day, 21 days before the failure 
occurred. We were in a blind study. The utility did not know 
that we were doing this. Operationally, they let us just go out 
and put this on the system, so we were knowing for 21 days that 
clamp was arcing.
    My 1950 Chevrolet did not have anything in it that told me 
that it was broken or going to break. It was broken when it 
stopped running, right? Today, we've got a computer under the 
hood that tells us these things are going to happen to you and 
sometime you better get in and get this fixed because it's 
going to break your car in a day or two or a week or three.
    In medicine, we now use advanced diagnostic equipment to 
find cancer early so it can be cured long before catastrophe. 
We've got an analogy here to the distribution circuits and that 
is a new tool allowing operators to have continual health 
assessment of all circuits 24/7 to identify failing devices and 
fix them before catastrophic failures occur or cause an outage 
or cause a fire.
    Now it's important to know, extremely important to know, no 
technology or program is ever going to prevent all fires. 
That's just not possible. But what we need to do is use every 
tool that is available to us to prevent every fire that we 
possibly can because some of those fires, of course, are 
devastating.
    The reality is this, Texas A&M University now operating on 
20 different utilities with this technology has demonstrated 
that a new tool can find and fix and diagnose and help you 
locate many of the things that are actually causing fires. I 
pull it up on my phone, I put in a code, I pull up a picture 
and I will give you that on the Vector Substation in Australia 
on Substation A-Circuit A, a four operation fault occurred. It 
was 335 amps. Replaced itself, re-closed, et cetera, and 
ultimately ended up closing. It occurred at 7:12:55. I know 
more from this phone with this technology than the operators 
know in that utility in Australia, and I'm sitting here in 
Washington, DC.
    This technology is available, it's ready to use and it will 
prevent some fires.
    [The prepared statement of Dr. Russell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Dr. Russell, thank you. This has been very 
interesting. Kind of the progression of the testimony here this 
morning, we are talking about real issues on the ground that 
have had devastating impacts, loss of life and property that 
has just been horrific, and acknowledgement that how we deal 
with the vegetation and the management side of it. But then to 
move to the technology to really key in on the prevention is a 
good way to have this discussion before the Committee.
    Mr. Johnson, I want to begin with you and this relates to 
the situation as it is now. The fact that during this fire 
season, PG&E had to employ the Public Safety Power Shutoffs to 
make sure that there was a level of safety. Certainly it 
interferes with that reliability that the customer expects, but 
a reality that sometimes you have to prioritize between the 
reliability versus the resilience and, again, truly the safety.
    There is nobody on this Committee who is from California, 
so I will ask the question that Californians probably want to 
know and that is, in terms of impact to customers going 
forward, how long do you anticipate that PG&E will have to 
resort to additional PSPS events?
    That impact, I think it was you, Dr. Wara, who mentioned 
the financial impact to communities. It is real. It is 
tangible, very personal. So can you speak to that aspect of the 
current situation?
    Mr. Johnson. I can give you an estimate. It's hard to be 
precise about this.
    The Chairman. Sure.
    Mr. Johnson. I will say the use of the PSPS goes back to 
the early 2000s in California, and really after fires in 2007 
at San Diego Gas & Electric. Twelve years later they're still 
doing PSPS events, but in a very narrow surgical way. And so, I 
think for us in Northern California, it will take us probably 
five years to get to the point where we can largely eliminate 
this tool. There are a number of things we can do to narrow the 
scope, narrow the duration. We have better predictive 
capability, better technology that you heard about. So I think 
over the next couple of years you will see a progression of 
shorter, fewer PSPS events. But the climate change and the 
weather change is traumatic enough that I don't think we will 
see the end of it for some period of time.
    The Chairman. I mentioned the situation in Alaska with our 
fires this summer. The lines coming through the Kenai Peninsula 
area were impacted by that fire in the region, and it has 
limited the ability to move the cheaper renewable power from 
Bradley Lake Hydro all the way up the Railbelt to Fairbanks. So 
those who are closer to the source, if you will, their rates 
are not going to be impacted that we know of. But we are 
learning that as we are going into the colder, darker winter 
months in the interior where costs are already high, this is 
impacting the ratepayer. And it is something that I think 
oftentimes we forget that you don't have to be in the range of 
the fire to have your rates impacted by what we are seeing with 
these significant events.
    When we talk about hardening the grid, we all know that 
that undergrounding would certainly eliminate some of the risk 
that you see, you are not going to have downed lines because of 
fire. But the cost is considerable. You are in California, 
which is a seismically prone area. You did, though, mention 
that undergrounding was one of the things that PG&E is looking 
at. Can you speak a little bit more to that and whether that is 
really even viable?
    Mr. Johnson. Certainly, you know, historically 
undergrounding was usually for aesthetic purposes. You had a 
downtown you wanted to beautify, you'd put the lines 
underground. And in recent years as we built substations, 
subdivisions and other things more underground and we do plan 
to underground more, in California, distribution line. You get 
to a certain voltage, a certain size line you cannot 
underground it. But this is not going to be a complete answer. 
As you pointed out, in a high-seismic state when the line is 
underground and you have a problem with it, it's much harder to 
find the problem than when it's overhead. So there will be more 
of this, but this will be much more targeted and won't be a 
large percentage of the lines.
    The Chairman. I have additional questions, but we will have 
everybody go around. Senator Manchin.
    Senator Manchin. One second, Madam Chair.
    I want to thank all of our presenters today. But Mr. 
Johnson, I will probably be directing most of my questions to 
you right now because PG&E has been on the front burner as you 
know. We had a great meeting yesterday and you were forthcoming 
in saying the responsibilities you all took, you are in 
bankruptcy, coming out of bankruptcy I am understanding, 
settling with the homeowners and the different people that were 
concerned and basically affected by these fires. Nothing that 
we settle will bring back the lives of the people that were 
lost, and I know you shared that, your grief over that.
    Where are you all financially? Are you going to make it? 
Are you going to survive? Are you going to be around to serve 
your customers? Where are you as far as in basically upgrading 
the equipment, making the changes? I see Dr. Russell has some 
great comments and also some great technology that might be 
very helpful. If you can give us just a rundown financially 
where you are, settling with the families. Where the company 
is, are you stable enough? Are you going to survive? And next 
of all, where you are in your equipment upgrades and things you 
are doing there to make sure that you can prevent this as much 
as humanly possible from ever happening again?
    Mr. Johnson. Thanks Senator for those questions. I came to 
PG&E about seven, eight months ago. I'd never been in a 
bankrupt organization before, so I didn't know much about it. I 
am now the Wikipedia of bankruptcy, so I can answer some of 
these questions.
    We have taken the most important step, which is to resolve, 
to settle, to make amends to particularly the fire victims, the 
people who lost loved ones or lost their homes. So we have made 
settlements, and the Bankruptcy Court has approved all of the 
settlements with people we owe money to. That's the key thing 
in a bankruptcy.
    There are a lot of other things that have to happen in the 
bankruptcy. We have lined up financing to finance the new 
entity when it comes out, but there's still a lot of work and 
who the eventual owner is will be determined by the Bankruptcy 
Court. But at least in my mind, the most important thing has 
happened, which is we have made amends to the people who are 
affected by these fires. In terms of--and by the way under 
California law, we have to be out by the end of June next year. 
So we'll know the answer pretty quick about what it's going to 
look like.
    We've done a tremendous amount of work upgrading the 
system. In this year alone, we inspected every asset in the 
high fire district and repaired what was needed, repaired on a 
priority basis, looked at every substation. We are installing 
hardened wire, we're doing vegetation management.
    Historically, the vegetation management rules in California 
were pretty restrictive. They have been loosened. So we're 
clearing a lot more. So we're doing about everything we can. We 
are adopting some of the technology from the National Lab and 
from Texas A&M and from Australia. So we are sort of operating 
on all fronts to make this system safer and more resilient.
    Senator Manchin. Dr. Russell, do you have anything to add 
to that as far as what you are seeing and you have been 
evaluating that or does anybody on the panel want to make any 
other comments? Because that has been the most devastating 
thing that we have ever seen and our hearts go out to every 
victim and every family member who lost a loved one and also 
the loss of all their worldly goods. I was very impressed with 
Mr. Johnson basically saying that they were at fault and the 
company was at fault. And even though he is new to this, he is 
there trying to make those amends and make them correct. We 
will see how this ends up.
    But is there more that can be done? Do any of you see that 
there should be other actions taken?
    Dr. Russell. There is more that can be done. Not because 
the utilities have not been using state-of-the-art equipment 
that was available to them. That's an extremely important 
point. You regularly hear in the newspapers, unfortunately 
that----
    Senator Manchin. We have heard some of the lines on some of 
the poles back from World War II had not been replaced.
    Dr. Russell. We build very rigorous power systems in the 
United States. They are meant to last for decades and decades. 
There are lines outside of our house that have been there since 
the 1940s that are still delivering power, and frankly there's 
not really much wrong with them because the copper in those 
lines is probably better than what we'd put up today.
    You have to be really careful about talking about age in a 
power system----
    Senator Manchin. Got you.
    Dr. Russell. ----because they are meant to last a very long 
time. You can have a power system that has new wire that will 
come down exactly the same way tomorrow in a vegetation-related 
incident that would have if it had been 20, 30, or 40 years 
old.
    Senator Manchin. So what is more that we can do?
    Dr. Russell. We can do more because we need to use advanced 
diagnostics. Everything that everybody has said they want to do 
is good--clear more trees, harden the system, use bigger wire, 
stronger poles, concrete, X-Y-Z, all those are good things.
    I will tell you because I've looked at all the fires in 
California that are significant as well as in Texas and 
Oklahoma and other places. Many of the things we're doing are 
not addressing the most important things that are causing the 
fires. We're spending an awful lot of money on hardening. We 
should. Don't take me to say we shouldn't, right? Because the 
one thing that you do may prevent the biggest fire you're about 
to have. So you should do everything. But there are a lot of 
fires that none of the hardening is going to fix.
    We need more diagnostics. Waveform analytics is able today 
to diagnose your car. It's able to diagnose your condition and 
health of your body, and we can most certainly diagnose in 
real-time a lot of the things that are failing on power 
systems.
    Senator Manchin. Thank you very much Madam Chairman.
    The Chairman. Senator Daines.
    Senator Daines. Thank you Chairman Murkowski, Ranking 
Member Manchin.
    Dead and dying trees near power lines can increase the 
severity of wildfires and put the safety of our wildland 
firefighters at risk. In fact, last year's unspeakable tragedy 
in Paradise, California, where 85 lives were sadly lost, it 
brought renewed focus on the dangerous interactions that can 
take place between hazardous forest conditions and our 
electrical transmission infrastructure.
    In fact, going back to Montana's terrible fire season in 
2017, I remember reaching out to one of our county 
commissioners in the midst of one of the bad fires. He shared a 
startling story with me about firefighters and the risk that 
they could not take of putting firefighters near high voltage 
transmission lines when the fire was brewing because of the 
carbon being emitted by the fire, the smoke, the gases, and the 
potential for the arcing that comes from the high voltage 
transmission line down to the ground.
    At that point that battle's almost lost. We have a chance 
to be proactive in managing the vegetation along high voltage 
transmission lines. But when the fire starts, he said, ``Steve, 
we can't move our firefighters near that high voltage line 
because we put them at risk. Their lives are at risk because of 
arcing from those high voltage lines.''
    These stories and these catastrophic wildfires are not an 
anomaly. Unless we do something about it, we will see more 
catastrophic wildfires. We must increase active forest 
management, especially near our power lines, electric 
infrastructure that run across tens of thousands of miles of 
our federal lands. Doing so is critical to preventing wildfires 
and, as the Montana county commissioner shared, to putting them 
out as well.
    That is why I have been developing bipartisan legislation 
with Senator Feinstein. Think about this, a Republican from 
Montana and a Democrat from California working together on 
active forest management. It would expedite vegetative 
management alongside electrical infrastructure among other 
major reforms. I very much look forward to bringing this 
bipartisan legislation before this Committee in the very near 
future.
    Mr. Corwin, you mentioned the 2018 reforms requiring the 
Forest Service to develop expedited environmental review for 
vegetative management. I am glad that the rulemaking process is 
going forward, but I believe a clear statutory categorical 
exclusion could be very useful. My question is this: can you 
first discuss the challenges in engaging with federal agencies 
to receive necessary permits to remove hazardous vegetation?
    Mr. Corwin. Thank you, Senator.
    Yes, it's--there are several challenges and I do believe 
the law is really helping to move along and move this onto a 
better plane. So thank you again to the Committee and Congress 
for passing that, but you still have--you have a large workload 
at the agencies which create--can create time delays as you're 
going through the process. It's also for a small utility, 
especially very expensive. It can take a couple of--it can take 
anywhere from two to three years for smaller projects, three to 
four years for larger projects once you're into the NEPA 
process, even if you pay for your own third-party analysis on 
it. So that's--in a utility that may only have several million 
dollars of revenue a year to start with, adding that cost is a 
big load.
    Senator Daines. Could you discuss then the benefits as 
well? On the, kind of, better news side of this, of 
establishing a new statutory categorical exclusion, the CEs, to 
accelerate removal of hazardous vegetation near electric 
infrastructure on federal lands?
    Mr. Corwin. Yeah, I think, like I said before Senator, a 
lot of these utilities have very good working relationships 
with the local offices of the Land Management agencies. I think 
clarifying to the extent where it should and could be clear in 
law, would free up both sides to do what they know needs to be 
done on a more timely basis. So that would be a large benefit 
right there.
    Senator Daines. Thank you. Dr. Russell, in my remaining 
time, you speak in your testimony of the dangers of arcing in 
terms of causing wildfires. Could you also address the risks of 
firefighters in the scenario that was described to me by my 
Montana county commissioner?
    Dr. Russell. Yes, I can. The plasma that is created in the 
heat and the smoke products of a fire that's burning at several 
thousands of degrees at the flame tips up around a transmission 
line creates a conductive path that will allow arcing to occur. 
Often it occurs between two of the wires up at the top, which 
creates another fault condition on the power system, but it 
also can occur to ground. It is a dangerous condition for 
anyone to be in, although it is a difficult set of 
circumstances to create and often the fire has to be very 
aggressive at that spot. So having a firefighter standing at 
the spot of the most aggressive fire is a little dicey, but of 
course they're there to put it out so it could be very 
dangerous for them.
    Senator Daines. All right, thank you.
    The Chairman. Thank you, Senator Daines.
    Senator King.
    Senator King. Thank you all. Very informative.
    Dr. Russell, I am trying to figure out exactly how this 
happens. In my bathroom, I have a GFCI switch, if something 
happens there is a fault. It instantly goes off. Doesn't that 
happen in this case? You talk about a fire up at the top of the 
tower, aren't there devices that would automatically trip that 
line so that it doesn't continue to feed the fire? Or couldn't 
you have a device if a wire falls toward the ground that it 
would be deactivated before it even hits the ground in a matter 
of milliseconds?
    Dr. Russell. Okay. There's about three levels of questions 
there. Let me take them in the order.
    The device that you have in your bathroom needs seven 
milliamps approximately of current from you to earth or to the 
bathroom sink or to the water in order to trip. One of the 
problems is that when you have an arcing clamp like this out on 
a circuit, it's got a very, very low initial current. It is not 
detected by any device that the utilities currently have and in 
concept it would be, say, operating at five milliamps, like 
your bathroom thing, which is lower than the thing so it 
wouldn't detect it.
    That's our problem is the things that we use today are 
looking for higher currents. They're looking for the higher 
currents that occur in many, many faults.
    Senator King. But can't this be engineered? It seems to me 
that you have engineered it.
    Dr. Russell. We have----
    Senator King. You have engineered a device that informs us, 
but how about engineering a device that will trip the circuit?
    Dr. Russell. Tripping the circuit would be the direct 
consequence of first being able to detect it. We have the 
technology to detect it. We already know how to trip the 
circuits off. So integrating this into the utility system, of 
course, is a plan that has to be done. The utilities are using 
extremely good equipment to detect the fault once it becomes a 
higher current fault. PG&E's equipment today, which I'm very 
familiar with, would probably detect a fault and trip it in a 
few hundred milliseconds. I mean that's, that's exceptional, 
right?
    Problem is that fire can start in about 16 milliseconds. 
Grasses in an arc condition based on research done in Australia 
show that ignition occurs in 10 to 20 milliseconds. So we don't 
have equipment today that could remotely do that.
    Now, the last part of your question was lines that are 
dropped--can we detect them before they hit the ground? There 
is some work that's been done. It's been experimented with at 
San Diego Gas & Electric. A good friend of mine ran that 
project. It's a wonderful thing to do, but the problem is this 
and there's nothing wrong with that if we can do it--line 
drops, cut it off before it hits the ground. Great thing to do. 
But what caused the line to fall in the first place? It may 
have been this arcing clamp that was detectable 21 days before. 
I'm talking about technologies that will keep us from having 
the line ever fall--not having then to worry about whether we 
can turn it off.
    Senator King. The technology that you outlined, it was very 
dramatic and important testimony.
    Let me ask another question. This is, sort of, a chicken 
and egg. Are these problems in California caused by failures in 
the routine--I know, it is not routine but call it routine--
failures in the presence of a lot of fuel or are the failures 
caused by the weather event, which also incidentally has 
created the fuel? In other words, is it wind? Is it something 
that causes it or could the kind of technology that we are 
talking about here obviate this problem or is it a whole 
different problem caused by wind or a climate issue?
    Mr. Johnson. So you can have a perfectly sound system with 
everything working well in a current configuration and have a 
branch blow into the line from 100 yards away in 100 mile an 
hour wind and you have a fire. So it is weather-related and not 
really related to the----
    Senator King. But these aren't routine failures. These are 
weather-related.
    Mr. Johnson. These are weather events. Exactly right. We 
saw, as I said, 100 mile an hour winds in Sonoma and Napa, that 
is a weather event. So, but this technology would help because 
as soon as that branch blew into the line, it would shut the 
line off.
    And the other thing is here, it is so dry. I moved to 
California late April, and it didn't rain until Thanksgiving--
eight months with no rain. And so one spark, I mean just a 
spark, and you know you have conflagration. So anything that 
would stop the current immediately would be a tremendously 
helpful technology.
    Senator King. Well, there is an undertone to this whole 
discussion and that is climate change. We talk about it a lot 
around here in sort of abstract terms. I am going to a meeting 
on it in half an hour, but here is a real direct dollars and 
cents impact that is affecting consumers, individuals, 
families, lives all over the country and addressing that 
underlying problem is also part of the solution. Granted more 
long-term.
    Mr. Johnson. Absolutely. This is a climate-driven event. It 
shows up in 147 million dead trees because of drought, warmer 
temperatures so the beetles don't die, increase in wind speeds, 
change in wind direction. This is a climate-driven experience.
    Senator King. Thank you. Very important testimony. Thank 
you Madam Chair.
    The Chairman. Thank you, Senator King.
    Senator Gardner.
    Senator Gardner. Thank you, Madam Chair, and thanks to the 
witnesses for being here today. To kind of continue on the 
conversation that we have all had with various witnesses this 
morning. Mr. Johnson, talking about the impact that you have 
seen in California, we have municipal-owned cooperatives, 
investor-owned utilities in Colorado that face the same kind of 
questions obviously. In your testimony you mentioned that over 
50 percent of your service area is designated a high fire 
threat, higher fire threat area.
    What is the--could you remind me again the federal 
footprint in that part of your service area?
    Mr. Johnson. Yeah, so we cover about 70,000 square miles in 
Northern California. Half of that is in higher fire threat 
districts, so 35,000 square miles and about 30,000 linear miles 
of line. And about a third of our lines in that designation are 
in federal lands.
    Senator Gardner. So that gets into this issue of climate 
change as well and land management practices, because land 
management practices have a very significant impact on that 
threat that you face that could come from drier fuel, more 
fuel. And management practices matter or the lack of management 
practices matter to your company's transmission infrastructure. 
You would agree with that, right?
    Mr. Johnson. Absolutely. Yeah. It makes a big difference.
    Senator Gardner. Yes. So as you talk and listen to some of 
the testimony this morning, you have spent $3.8 billion you 
have said since when?
    Mr. Johnson. In the last decade.
    Senator Gardner. In the last decade, $3.8 billion and that 
is on forest management in your own right-of-way.
    Mr. Johnson. Correct.
    Senator Gardner. During the Farm Bill negotiations last 
year, we talked about this too, that we had some success across 
the aisle on a vegetation management pilot program that allowed 
for wildfire mitigation to work adjacent transmission rights-
of-way on federal lands. And you know, as good of a job as you 
do within that right-of-way, your own right-of-way, if a 
massive fire burns in the forest 50 yards from your 
transmission lines, that is going to have an effect on your 
infrastructure as well. Beetle kill fuels feeding it, your 
infrastructure is going to be affected.
    So it makes sense to try to empower utilities and others to 
be able to deal outside of that right-of-way as well to give 
themselves a little bit of a buffer. Would you agree with that?
    Mr. Johnson. Yes, that'd be very helpful.
    Senator Gardner. And so in Colorado we are working with 
Xcel Energy. Colorado is working with Xcel Energy to partner 
with the Forest Service to utilize that authority that we have 
given. How would you describe the opportunities with public-
private partnerships to help protect electricity infrastructure 
against threat, in line with something that we talked about?
    Mr. Johnson. So the bill that was passed either last year 
or the year before that you have mentioned was a really helpful 
bill in terms of vegetation management, access to federal 
lands, these things. So a couple things that go along with 
that, making sure that the rules that come out are good rules, 
continued funding of those things, and the opportunity for 
public-private partnerships.
    I think the agencies have shown a lot more interest in 
working with us on those things since that bill was passed. And 
so we have agreements now with the Interior. I think we're 
working on a master agreement with the Forest Service that we 
don't have to come in every year and redo things. So I think 
all of that is moving in the right direction.
    Senator Gardner. Dr. Russell was talking about some of the 
technologies that you could have. Could you talk about, sort 
of, either the practicality cost impact, what that means to 
have technologies on a clamp that would a trip the kind of 
technologies to shut off the threat?
    Mr. Johnson. So one of the things that we always worry 
about as public utilities is affordability and how do you 
balance safety costs, all these things. So we are doing small 
pilots with these technologies. I think on Dr. Russell's, we 
have six circuits that we're testing with his technology. We're 
using some from Australia. And what we're going to have to 
figure out is how well they work. Do they work in our 
conditions? If they do work, we could deploy those and maybe 
reduce some of the other things we're doing, like cutting down 
fewer trees or other things. But it's too early for us to know 
exactly how that technology will displace more manual 
activities.
    Senator Gardner. Thank you. Thank you, Madam Chair.
    The Chairman. Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Thank you, Madam Chair and 
Ranking Member, for this important conversation.
    So just to put things in perspective, Nevada is one of the 
driest states in the country. Our annual average rainfall is 
about 9.54 inches. We no longer have wildfire seasons. We have 
just wildfires all year long. The challenge we have and I--
that's why I appreciate this conversation. I guess let me start 
with Mr. Imhoff and Dr. Russell in following up on what Senator 
Gardner was talking about.
    This new technology that we are talking about is a game 
changer. I guess my first question to you is how accessible is 
it to the utilities and affordable for utilities? Are we still 
in the beginning stages of testing it?
    Dr. Russell. We've been testing this on a number of 
utilities for several years. We started at--the State 
Legislature of Texas, after the 2011 wildfires, funded a 
project that I headed. From 2012 to 2016, we ran a four-year 
project with seven utilities, placing this technology there to 
determine how effective it would be. It was extraordinarily 
effective.
    Several of the utilities are rolling this out on their 
system right now. Pedernales, which is the largest co-op I 
think in the United States, in central Texas is rolling this 
out on their system. They already have quite a number of these 
units installed. It works. It's available. This is no longer 
something that's in a laboratory. This has been available now 
for several years, but was rolled out softly so that we could 
determine how to best integrate it into the utility industry. 
For $5 to $10 a customer for the typical circuit for about a 
three-year payout you can install one box. It's not much bigger 
than this on one circuit and it takes care of, if you have 
2,000 customers, it's monitoring 2,000 customers.
    Senator Cortez Masto. Thank you.
    Mr. Imhoff. I would add to that, Senator, that in San 
Diego, the incidents for falling power lines, they need to de-
energize them within about 1.3 seconds, typically. San Diego 
Gas & Electric is working with a major vendor, I believe at 
Schweitzer Engineering out of Pullman, Washington, to test 
that. It has had early success and they have installed--they've 
begun installing it on a small fraction of circuits, that are 
some of their highest risk circuits.
    And I know that--I went to the EEI Wildfire Conference in 
San Diego in October and all of the utilities in Washington and 
California are working together on mapping risk, identifying 
high priorities for testing some of these new concepts. You 
probably wouldn't roll it out on the entire system.
    Obviously you're going to start at the higher-risk area. 
It's coming out of the laboratory and the vendors are involved, 
so that indicates a reasonably short pathway once the level of 
confidence rises in terms of its effectiveness,
    Senator Cortez Masto. Is there more that we should be doing 
at a federal level to incentivize the expansion of the use of 
this technology? The reason I say that is because I am also 
interested in, and we talked about this technology being one 
tool that we should be looking at, to address these fires. I 
know there is talk among some of the states about how we adopt 
incentives for community-wide defensible space programs.
    Let me just give you a perfect example. Because we are one 
of the driest states, water use and conservation of water is 
very important for us. In the late 1990s to early 2000, 
southern Nevada particularly started incentivizing people 
rolling up their grass, no longer lawns and use xeriscape 
landscaping, and we did it through incentives.
    Should we be looking at a federal level to help incentivize 
certain programs like that or are there things, other things 
that are best practices we should be aware of?
    Mr. Imhoff. Two things come to my mind. One is that the 
public-private partnerships that this Committee and others have 
been very supportive of in terms of helping move technology out 
and put it into practice have been very effective, and I think 
the key there is having industry involved in the research and 
the advisory panels and other things so they can identify its 
effectiveness, volunteer as partners to demonstrate, and then 
get it engaged with their vendor community very quickly. That's 
proven to be very effective.
    The other thing we're seeing is that part of the challenge 
for regulators and consumer-owners is figuring out how much is 
worth spending in terms of resilience. And we have very good 
national data in terms of outage costs to consumers for up to 
24 hours. As you go into longer duration outage costs, the 
information base is thinner and one thing that I think this 
Committee could examine is, are there opportunities to better 
articulate the consumer cost for long duration outages 
regardless of the source, whether it's wildfire or other 
outages? I think that would give regulators and owners and 
utilities and others better information to help identify how 
much resilience is worthy of investment and what would it 
really cost, sort of the trade-offs in terms of the cost to 
consumers. That seems to be an opportunity for some federal 
attention in terms of how do we strengthen that knowledge.
    Senator Cortez Masto. Thank you. Thank you.
    The Chairman. Senator Risch.
    Senator Risch. Well, thank you Madam Chairman. I come at 
this from a couple of different perspectives. As you know, my 
undergraduate degree was in Forestry, particularly Forest 
Management. Then after I got out of school, after I went to law 
school----
    Senator King. That was at the University of Maine, wasn't 
it?
    Senator Risch. Not exactly.
    [Laughter.]
    After I got out of law school, I actually defended a 
utility in a lot of different cases and I actually defended 
fire cases. A couple of observations I would make from an 
overall standpoint. Number one, the utilities do everything 
they can to try to stop this. Transmitting electricity is 
dangerous, and as a result of that the courts around the 
country have said that utilities will be held to the highest 
standard of care that there is as far as handling electricity. 
So the utilities take that obviously to heart but when you have 
wires out there, there are going to be faults from things that 
you can't possibly imagine.
    One of the very earliest cases that we had in Idaho was the 
utility was held liable--a reach, but they were held liable--
when two hawks got to fighting and got tangled up and fell 
between two lines and actually arced between the two lines and 
started a fire and burned up a guy's crop. And the court took 
the side of the farmer. But it is hard to say that that was 
reasonably foreseeable, but that is what happened.
    I handled a case one time where a young child got into a 
substation and wound up touching two hot points. And you just--
there are so many different--drunks hit poles all the time. And 
wind goes through here, they are going to have these kinds of 
things. So they do everything they can to stop it.
    I appreciate the work that is being done by Dr. Russell and 
others, but a fault is determined is--now they have it such 
that a fault can be detected almost instantly and shut 
everything down, but almost isn't quite good enough. What you 
need is something that can foresee a fault which, Dr. Russell, 
help me out, but I think that it is impossible to foresee a 
fault.
    Dr. Russell. Actually, in the very earliest stages this is 
not a fire ignition mechanism when it starts to arc and we can 
detect it.
    Senator Risch. Well, that's better and it will continue to 
get better, I am sure. But the point is there are going to be 
times when you are going to get arcing and you are going to get 
a fire started.
    Then you go to the next point. And that is, once you have 
that happen, what do you do about that? And that is you need a 
forest maintenance and you need to be--have the right-of-way 
cleared out.
    Madam Chairman, I am going to ask that this be introduced 
in the record. This is a ``Routine Operations and Maintenance 
to Reduce Fire Risk on Utility Rights-of-Way'' dated December 
12, 2019, and it was signed by the State Director for the BLM 
in Idaho. It is only three pages long.
    And if I can paraphrase this, it's ''Hey guys, fires start 
in these rights-of-way, give these utilities all the help they 
can get, to get these utilities some help as they're clearing 
out their right-of-way.'' One sentence in here says it all, 
``The right-of-way holder determines that an operation and 
maintenance work is necessary to prevent or suppress wildfire, 
then field officers should not require the right-of-way holder 
to obtain any additional notice to proceed or other form of 
prior approval prior to conducting the O&M work.''
    I think this is--you don't see this from bureaucrats very 
often that they can say it as quickly and as clearly as they 
can, telling everybody that look, let them get in there and do 
this, and don't be having them fill out all this paperwork.
    So these are the kinds of things that need to be done 
because when you have electricity being transmitted through an 
urban area it's actually easy for the fire department to get 
there and put out a fire. But as we have seen in California, if 
it gets started out in the middle of nowhere, and once it gets 
going, it's ``Katy bar the door.'' And so it is important that 
these rights-of-way be cleaned up constantly.
    So I would like to introduce this into the record.
    The Chairman. That will be included as part of the record.
    [December 12, 2019: Routine Operations and Maintenance to 
Reduce Fire Risk on Utility Rights-of-Way Guidance Memo from 
the Idaho BLM State Director follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator Risch. I think this is an excellent area. It really 
underscores the two sides of this, number one trying to do 
everything that possibly can be done by the utility to stop the 
fire and then, secondly, to get the right-of-way cleared up so 
that if a fire does start, it is minimal.
    The utilities, of course, are incentivized and this 
incentive question was raised. They are incentivized by the 
fact that they do business on a cost-plus basis virtually 
everywhere. They are all regulated by the Public Utilities 
Commission, or whatever you call it in the various states. And 
so, they are incentivized to get out there and do it. Idaho 
Power Company in my state has contracts with people to go out 
and trim the trees on the rights-of-way. They are at it every 
single day. It is a constant program.
    I am amazed here in Washington, DC, when I see the kind of 
outages--power outages that you get here and not only that, how 
long they last. And it is primarily because they don't do the 
work that they need to do in the rights-of-way. And that is 
critically important to be out there because as trees grow and 
when they grow the branches get blown into the lines and when 
that happens, you get a fault and when you get a fault you get 
a fire. It is that simple. You need to be out there clearing 
those lines.
    So thank you for holding this hearing. I think it is 
important for everybody to recognize the two parts of this. 
Thank you.
    The Chairman. Thank you, Senator Risch.
    Senator Cantwell.
    Senator Cantwell. Well, following up on my colleague from 
Idaho's point, in the 2018 legislation there was a Cantwell-
Murkowski provision to make it easier, I think some of you have 
mentioned this. It provides the Forest Service and BLM the 
ability to manage this infrastructure on federal land, requires 
the Forest Service and BLM to give electrical transmission 
companies quicker access to federal lands so they can remove 
hazardous trees and vegetation.
    Mr. Corwin, you have reviewed the Forest Service and BLM 
regulations on these new laws. I am interested in hearing what 
we can do to speed this up so that the trimming protocols are 
in place and we are moving forward.
    And Mr. Imhoff, if I could hear from you, obviously also in 
the Gardner-Cantwell legislation, we gave more tools: GPS 
locators, digital mapping--the Forest Service is not yet one of 
the agencies using those. We want to know what we could 
successfully be doing if we were. And the obvious issue of our 
National Labs trying to develop this prediction model, which I 
am all for because I feel like a lot of this is changing 
climate and drier conditions, which also just leads to a higher 
propensity for these events to happen and I am interested in 
what you think.
    I think when it comes to water and fire, neither one of 
them recognize national boundaries. My colleague and I are 
having a meeting later today on the Columbia River Treaty 
issues and pushing ahead. But on the fire side, we are seeing 
in the Pacific Northwest so much impact from Canada. So how can 
we manage this if we are not in partnership with Canada and 
what they are doing to help us manage it? I don't know what we 
can do to get cooperation--PNNL on a mapping system that is 
larger so we see where these risks are coming at us. So if you 
could comment on those, Mr. Corwin and Mr. Imhoff.
    Mr. Corwin. Yes, thank you, Senator. On your last point, 
that's correct. Canada's had significant wildfires as well, so 
coordination internationally, as well as nationally, makes a 
lot of sense.
    On implementing the regulations, it was very helpful to 
have that piece of legislation go through. Now we really want 
to make sure that implementation is coordinated between those 
two agencies and that it's quick. The regulations that are 
proposed are very different between the two right now.
    We've commented on the Forest Service with some 
suggestions, as have others, on how we can make sure we're 
clear on what is routine maintenance. What is a hazard tree? 
Are we really going to hit these timelines and implement this 
efficiently across all of their offices in the West?
    With BLM that was pretty--as the other Senator noted--good 
guidance. It's a brief guidance. It's not an actual regulation. 
It's a memo to those state offices, but it's a good start and 
we'll want to follow up with them and make sure that it's 
happening. But it's, in both instances, very helpful and 
Congress's role in overseeing this is very helpful. So I 
appreciate the hearing today.
    Mr. Imhoff. I'll talk a little bit about the biomass and 
the importance of international cooperation. In 2018, 
Washington State had phenomenal airshed problems with smoke. I 
recall one day they said we have 300 fires burning in Oregon, 
250 burning in Washington State and 2,500 fires burning in 
British Columbia. And, of course, all that airshed came down 
and filled the Columbia Basin--I have an N95 mask in my 
vehicle. So clearly it spans international boundaries.
    The work that's going on now preliminarily between the 
Forest Service and PNNL and Department of Energy's biomass 
program is using satellite imagery to look ahead to watersheds. 
In this case it is the Entiat Watershed just north of 
Leavenworth, and then the Wenatchee River Watershed, so Central 
Cascades. Using the telemetry to identify fuel buildup, health 
of the biomass, moisture content, et cetera. That is then 
mapped and is updated on a day ahead, week ahead, month ahead 
to help planners begin to position where do we have extreme 
aridity in the biomass combined with high fuel buildup that 
might then inform the owners of infrastructure that crosses 
those areas. In this case, that's Bonneville Power, it's Puget 
Sound Energy, and Chelan PUD who is bringing power across some 
of those watersheds.
    So this is sort of an early activity and the issue then 
would be how much of that might be extended down into other 
critical areas, either forest or range areas for the upcoming 
fire season. And you know, they can't do the whole West 
obviously in six months, but they can perhaps pick one or two 
additional areas and that could be extended to coordinate 
across the Canadian boundary as well. So, and clearly through 
the negotiation of the Columbia River Treaty that water is a 
central part of that negotiation.
    The interesting thing from a grid resilience standpoint is 
most of the energy storage in the Columbia River is from Grand 
Coulee north; everything south of that is run of the river. So 
if you're looking for grid flexibility to give the power system 
resilience across all hazards, that storage capacity in the 
Columbia River is really critical. And so, what's an important 
part of that negotiation is sort of how do we assure grid 
flexibility spanning that international border for the overall 
Columbia River Basin.
    Senator Cantwell. Thank you, and thank you for mentioning 
that. But I really do want us to get that satellite time and 
information because I do think it will be helpful for us. Thank 
you.
    The Chairman. Thank you, Senator Cantwell.
    Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    This is a question for Mr. Johnson. Most people in the rest 
of the country don't know that wildfire is a real problem in 
Hawaii, but it is. Last year Hawaii had 627 fires that burned 
over 32,000 acres with the biggest fires resulting from 
hurricanes approaching the islands. Just this summer wildfires 
burned over 14,000 acres on Maui Island alone with conditions 
that firefighters said they had never seen before. The 
temperatures on Maui were hot where records were tied or broken 
84 times from April through October, and the fires moved 
quickly across what used to be managed sugarcane farmland but 
has now gone fallow and been invaded by highly flammable Guinea 
grass.
    With climate change and the spread of invasive species, 
Hawaii's wildfire threat is becoming increasingly similar to 
circumstances in California and it is important that we learn 
from those experiences to best plan for our future. Also like 
Hawaii, California is a leading state on integrating renewable 
resources.
    My question, Mr. Johnson, is how do you think California's 
move to zero carbon pollution power sources will interact with 
the need to address wildfire risks? In other words, can 
utilities build a grid that is resilient to wildfires and other 
threats while simultaneously using power from mostly renewable 
sources?
    Mr. Johnson. Thank you for that great question. I don't 
think there's any contradiction between being firesafe and 
being carbon-free. I think you can do both. I think we need to 
do both. I think the climate problems that we suffer are 
causing a lot of these fires. It sounds like that's the cause 
in Hawaii.
    Senator Hirono. Hurricanes.
    Mr. Johnson. The hurricanes, the size and strength of 
events are increasing. And so I don't think they're mutually 
exclusive. I do think in the short-term, particularly in 
California, as we prioritize what we're doing, we may have to 
prioritize system hardening and fire prevention at the expense 
of a little bit of other things, but this will not get in the 
way of meeting California's energy goals or renewable goals or 
any of those things. We will do these together.
    Senator Hirono. I hope that we can learn from your 
experiences and perhaps my office can follow up with you as to 
what you folks are doing to meet both of these needs.
    For Mr. Imhoff, DOE's National Labs have provided key 
support to Hawaii's transition to 100 percent renewable power 
by 2045. For example, as your additional testimony notes, 
Sandia National Lab and the National Renewable Energy Lab have 
been working with Hawaiian Electric to determine how to use 
advanced controls for distributed energy sources, like rooftop 
solar, to improve the performance of the overall power grid.
    We have heard a lot today about hardening the grid, but 
what role can community-scale microgrids, using local power 
sources and energy storage, play in ensuring that communities 
can maintain power or recover quickly from fires, hurricanes, 
and other hazards?
    Mr. Imhoff. Thank you for the question, Senator. So local 
distributed power supplies can help a community ride through an 
outage such as public safety power shutdown to provide critical 
services, healthcare, fuel pumping, other things while the bulk 
power system is out and being recovered. And that would work 
for wildfires or for hurricanes, and other things.
    Part of the research in DOE is focused more on how do you 
network multiple microgrids, which in Hawaii I know that's the 
case with your large number of military facilities, and how do 
you coordinate across multiple microgrids and change how they 
link--how they behave under a blue sky day when they'd be more 
economically dispatched versus a dark sky day when you might 
route that power more to the hospitals, healthcare, and fuel, 
et cetera. So it helps prioritize public safety during times of 
outage.
    Senator Hirono. Is this kind of networking of microgrids 
going on in Hawaii? Are you playing a role in that?
    Mr. Imhoff. It is going on in Hawaii and a number of other 
places. In Alaska, they have a number of examples of that as 
well. And a number of commercial vendors are working with DOE 
and demonstrating those. So that's very active in the 
demonstration phase. It's also connected to the national 
security agenda in terms of supporting the military bases 
around the country and using some of their distributed 
resources as well.
    Senator Hirono. Madam Chair, I know that we have a hard 
stop, so I will just submit the other questions for the record. 
Thank you very much.
    The Chairman. Thank you, Senator Hirono.
    I just want to ask one very, very quick question here 
toward the end. This follows on what Senator Hirono had raised 
to you, Mr. Johnson, with regard to the costs. I mentioned in 
my opening statement that California is a state that has some 
of the highest residential electric prices in the country. And 
so, as you look to the expenses that will necessarily be 
involved as you harden the infrastructure, as you work to 
mitigate the risk, as you incorporate some of these 
technologies, obviously there are costs there. Is there a 
trade-off that has to go on here that, in order to provide for 
this greater resilience, you have to kind of pull back on some 
of the other initiatives that were part of PG&E's agenda?
    I know you have been very aggressive in moving out into 
incorporating additional renewable opportunities. What does 
that look like in terms of your portfolio going forward and how 
do you balance then that cost? I am assuming that at some point 
some of this has to be shifted over to the ratepayers there.
    Mr. Johnson. So this is a great question and one we're 
wrestling with. This is a question of prioritization, I 
believe.
    The Chairman. Right.
    Mr. Johnson. What's most important in the short-term. And I 
will say the administration in California and the Public 
Utility Commission have recognized this, that we need to 
prioritize safety first. And so, we're actually in a proceeding 
or the start of a proceeding before the California Commission. 
What are the priorities going to be as we manage safety, the 
California energy goals, and affordability?
    So I don't know exactly how this is going to end up, but we 
will put safety first. We may have to prioritize a little, but 
we will also meet those energy goals in the long-term.
    The Chairman. Thank you for that.
    Senator Manchin.
    Senator Manchin. Real quick if I can, Mr. Johnson. Do you 
think that you are coming out of bankruptcy, reorganizing, and 
the commitment you have to make to the upgrades, will that be 
passed on--will you see increases in utility prices to your 
consumers?
    Mr. Johnson. So nothing in the bankruptcy will be put to 
the consumer. All of that, all the settlements, everything will 
be paid by the shareholder. There is some cost increases that 
will come to the consumers that were planned before the 
bankruptcy was declared. And actually the consumer will see 
fewer increases after the bankruptcy than they would have on 
the pre-bankruptcy plan.
    So it's going to be better for consumers and they're not 
going to pay for anything to the bankruptcy, but some of the 
upgrades of the system and other things to the benefit of the 
customers and they will have to help contribute to that.
    The Chairman. Well, this has been a very interesting 
conversation this morning. Again, I am glad that we were able 
to not only hear about the very specific situation, the real 
tragedies that we have seen in California for over these past 
years. But kind of thinking forward about what can we be doing 
on a more proactive basis to better recognize the threat to use 
the analytics that are out there, I think we recognize that 
technology has an extraordinary role to play and we are seeing 
some of that innovation through our labs and through our 
universities. So I thank you for that.
    I do think we recognize as a Committee that we have always 
had a problem with fire. That is nature here. But what we are 
seeing now with the ever increasing threat of fire, the 
intensity of these events and the fact that you have an 
interface that is unlike anything that we have seen before 
where folks are out in parts of the country where they just 
were not living before. We are seeing threats to property, 
threats to life, but how we accomplish what it is that the 
consumer expects, which is to be able to have power when they 
want it on their terms. But to do so in a way that allows for 
the safety of all and respects the issues regarding resilience 
that we are dealing with. These are serious challenges, but you 
have helped put in a little note of optimism, I think, in terms 
of some of the technologies that we have available to us and 
how we might be moving forward.
    With that, votes have been called and we will conclude the 
hearing. Again, thank you for being here and thank you for 
traveling to make this Committee hearing.
    [Whereupon, at 11:07 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                               [all]
</pre></body></html>
